                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

TO: AIGI       I   File Number: I89050007                                     I   Date: 02 March 2002

Subject: Closeout Memo                                                                    Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted ,&omthe file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to misuse leave. The subject repaid the leave
      in question and was counseled. The subject's superviso8 was reprimanded.

      Accordingly this case is closed.




               I    Preoared bv:   I                   Cleared bv:           11
                   Agent:              Attorney:     Supervisor:     AIGI
   Name: '



 Signature &
    date:
